     Department of Homeland Security

     ��������������������������


      Federal Emergency Management Agency's 

         Management Letter for FY 2013 DHS 

              Financial Statements Audit





OIG-14-77                                April 2014

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov


                                     APR 23 2014

MEMORANDUM FOR:	             Edward Johnson
                             Chief Financial Officer
                             Federal Emergency Management Agency
                          for
FROM:	                       Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT:	                    Federal Emergency Management Agency’s Management
                             Letter for FY 2013 DHS Financial Statements Audit

Attached for your information is our final report, Federal Emergency Management
Agency’s Management Letter for FY 2013 DHS Financial Statements Audit. This report
contains 19 comments and 41 recommendations related to internal control deficiencies
that were not required to be reported in the Independent !uditors’ Report on DHS’ FY
2013 Financial Statements and Internal Control over Financial Reporting. Internal control
deficiencies which are considered significant deficiencies were reported, as required, in
the Independent !uditors’ Report, dated December 11, 2013, which was included in the
Department of Homeland Security (DHS) fiscal year (FY) 2013 Agency Financial Report.
We do not require management’s response to the recommendations.

We contracted with the independent public accounting firm KPMG LLP (KPMG) to
conduct the audit of the DHS’ FY 2013 financial statements and internal control over
financial reporting. The contract required that KPMG perform its audit according to
generally accepted government auditing standards and guidance from the Office of
Management and Budget and the Government Accountability Office. KPMG is
responsible for the attached management letter dated January 15, 2014, and the
conclusions expressed in it.

Please call me with any questions, or your staff may contact Mark Bell, Deputy Assistant
Inspector General for Audits, at (202) 254-4100.

Attachment
                                 KPMG LLP
                                 Suite 12000
                                 1801 K Street, NW
                                 Washington, DC 20006


January 15, 2014


Office of Inspector General
U.S. Department of Homeland Security, and
Chief Financial Officer
U.S. Department of Homeland Security, Federal Emergency Management Agency (FEMA)
Washington, DC

Ladies and Gentlemen:

We have audited the financial statements of the U.S. Department of Homeland Security (DHS or
Department) for the year ended September 30, 2013 (referred to herein as the “fiscal year (FY) 2013
financial statements”), and have issued our report thereon dated December 11, 2013. In planning and
performing our audit of the financial statements of DHS, in accordance with auditing standards
generally accepted in the United States of America and Government Auditing Standards, we
considered internal control over financial reporting (internal control) as a basis for designing our
auditing procedures for the purpose of expressing our opinion on the financial statements. In
conjunction with our audit of the financial statements, we also performed an audit of internal control
over financial reporting in accordance with attestation standards established by the American Institute
of Certified Public Accountants.
The Federal Emergency Management Agency (FEMA) is a component of DHS. During our audit, we
noted certain matters involving internal control and other operational matters, related to FEMA, that
are presented for your consideration. These comments and recommendations, all of which have been
discussed with the appropriate members of management, are intended to improve internal control or
result in other operating efficiencies. These matters are summarized in the Table of Financial
Management Comments on the following pages. The disposition of each internal control deficiency
identified during our FY 2013 audit – as either reported in our Independent Auditors’ Report, or herein
– is presented in Appendix A. Our findings related to information technology systems have been
presented in a separate letter to the DHS Office of Inspector General, the FEMA Chief Information
Officer, and Chief Financial Officer.
Our audit procedures are designed primarily to enable us to form an opinion on the financial statements
and on the effectiveness of internal control over financial reporting, and therefore may not bring to
light all weaknesses in policies or procedures that may exist. We aim, however, to use our knowledge
of FEMA’s organization gained during our work to make comments and suggestions that we hope will
be useful to you.
We would be pleased to discuss these comments and recommendations with you at any time.
The purpose of this letter is solely to describe comments and recommendations intended to improve
internal control or result in other operating efficiencies. Accordingly, this letter is not suitable for any
other purpose.
Very truly yours,




                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.
                               Federal Emergency Management Agency
                              Table of Financial Management Comments

                                          September 30, 2013





TABLE OF FINANCIAL MANAGEMENT COMMENTS (FMC)

Comment
Reference   Subject                                                                              Page

FMC 13-01   Inability to Link Systems to Significant Grant Programs                               2
FMC 13-02   Management Review Control for the Annual Subsidy Re-Estimate Calculation              2
FMC 13-03   Insufficient Communication to Employees of the Department of Homeland Security        2
            Office of Inspector General Hotline and Code of Conduct
FMC 13-04   Deficiencies in the Monthly Budget Execution Reviews                                  3
FMC 13-05   Oversight by the National Flood Insurance Program (NFIP) Standards Committee          3
FMC 13-06   Deficiencies Related to the Public Disclosure Filing Process                          4
FMC 13-07   Internal Control Deficiencies Identified over Claims Paid at Selected Insurance       4
            Companies that Participate in FEMA’s NFIP as of March 31, 2013
FMC 13-08   Internal Control Deficiencies Identified over Premiums Written by FEMA’s NFIP         5
FMC 13-09   Non-Compliance with 5 Code of Federal Regulations (CFR) Part 2634 and 5 CFR           6
            Part 2638 Related to Ethics Requirements
FMC 13-10   Deficiencies in Policies and Procedures over Updating Loss Reserves at Insurance      6
            Companies that Participate in FEMA’s NFIP
FMC 13-11   Deficiencies Identified in the Integrated Financial Management System Chart of        7
            Accounts and Transaction Codes
FMC 13-12   Ineffective Controls over Intergovernmental Advances                                  8
FMC 13-13   Deficiencies in the Development of Mission Assignment Policies and Procedures and     8
            High Risk Undelivered Orders Write-off Process
FMC 13-14   Certain Payroll Processing Control Deficiencies                                       9
FMC 13-15   Deficiencies Identified over Claims’ Loss Reserves at Selected Insurance Companies    9
            that Participate in FEMA’s NFIP as of August 31, 2013
FMC 13-16   Issues Identified in Journal Voucher Testwork through September 30, 2013              10
FMC 13-17   Updates and Oversight Needed to Grant Accrual Standard Operating Procedures and       11
            Their Implementation
FMC 13-18   Improvements Needed in Management’s Review of the Acceptable Variance Ranges          12
FMC 13-19   Untimely Review of SF-224, Statement of Transactions                                  12

                                             APPENDIX

Appendix    Subject                                                                              Page

A           Crosswalk – Financial Management Comments to Active Notices of Finding and            13
            Recommendation (NFRs)




                                                     1

                               Federal Emergency Management Agency

                                  Financial Management Comments

                                         September 30, 2013




FMC 13-01 – Inability to Link Systems to Significant Grant Programs (Notice of Finding and
Recommendation (NFR) No. Federal Emergency Management Agency (FEMA) 13-01)

       We requested that FEMA provide an analysis to demonstrate the amount of undelivered orders
       (UDOs) flowing through each grant system during fiscal year (FY) 2013. We asked that the
       analysis include six items: (1) the Grant Program; (2) the Catalog of Federal Domestic Assistance
       number; (3) the responsible Directorate; (4) the award, monitoring, obligation, and payment
       systems used; (5) the relevant obligation and payment accounting strings; and (6) the reconciled
       net UDO balance.

       This information requested during the FY 2013 audit was the same information requested during
       the FY 2011 and FY 2012 audits. Per communication with FEMA, appropriate changes had not
       been made to remediate the finding related to the inability to link significant grant systems.

       Recommendations:
       We recommend that FEMA:
       �	 Develop and implement a monitoring control to ensure that the spreadsheet developed in
          prior years is updated when necessary.
       �	 Implement a process to monitor which grant transactions are flowing through which grant
          systems in order to facilitate an assessment of systems-based controls over obligations and
          payments related to these programs.

FMC 13-02 –Management Review Control for the Annual Subsidy Re-Estimate Calculation (NFR
No. FEMA 13-02)

       During our direct loan walkthrough at the FEMA Finance Center (FFC), we noted that FEMA did
       not have a formal management review control designed or implemented to ensure the accuracy of
       FEMA’s direct loan subsidy re-estimate calculation.

       Recommendation:
       We recommend that FEMA develop and implement a process to review and approve the direct
       loan subsidy and subsidy re-estimate calculations.

FMC 13-03 – Insufficient Communication to Employees of the Department of Homeland Security
Office of Inspector General Hotline and Code of Conduct (NFR No. FEMA 13-03)

       Based on testwork conducted over a sample of 15 FEMA employees interviewed to determine if
       they were aware of the DHS and FEMA Standards of Conduct (which we referred to as the Code
       of Conduct during these interviews, consistent with terminology used in our walkthroughs) and
       knew how to access the DHS and FEMA Standards of Conduct, we noted three employees were
       not aware of the DHS and FEMA Standards of Conduct and four employees were not aware of
       where they could obtain or access a copy of the DHS and FEMA Standards of Conduct.




                                                   2

                              Federal Emergency Management Agency

                                 Financial Management Comments

                                        September 30, 2013




       Additionally, based on testwork performed over a sample of 15 FEMA employees interviewed to
       determine if they were aware of the DHS Office of Inspector General (OIG) Hotline and how to
       access the DHS OIG Hotline, we noted three employees were not aware of the DHS OIG Hotline
       or how to access the DHS OIG Hotline.

       Recommendations:
       We recommend that FEMA:
       �	 Incorporate the awareness of DHS/FEMA Standards of Conduct and the DHS OIG Hotline
          information into FEMA-required trainings.
       �	 Continue to improve communications with its employees publicizing the DHS/FEMA
          Standards of Conduct and the DHS OIG Hotline.

FMC 13-04 – Deficiencies in the Monthly Budget Execution Reviews (NFR No. FEMA 13-04)

       During FY 2013, management used a manual template-based process in order to prepare the
       monthly budget execution reports. Based on our walkthrough and inquiries, we noted that only
       draft procedures existed for the preparation of these reports, and no documented procedures or
       controls existed over the review of these reports. Additionally, when we requested the manual
       budget execution reports as of February 28, 2013, the reports provided by the Budget Planning
       and Analysis Division (BPAD) covered only Funds 90 and 1E, FEMA’s Management and
       Administration, Salaries and Expenses fund accounts.

       Recommendations:
       We recommend that FEMA:
       �	 Finalize the draft standard operating procedures over the preparation of the monthly budget
          execution reports.
       �	 Revise standard operating procedures to include appropriate internal controls for the review
          and maintenance of monthly budget execution reports.

FMC 13-05 –Oversight by the National Flood Insurance Program (NFIP) Standards Committee
(NFR No. FEMA 13-05)

       Based on process walkthroughs, we determined the NFIP Standards Committee had not met since
       April 2012. Additionally, we determined five vacant positions existed on the Standards
       Committee as of July 31, 2013 and had existed for over two months. The five vacant positions
       represented members of the designated Write Your Own (WYO) companies, pools, or other
       entities.
       Additionally, we determined Federal Insurance and Mitigation Administration (FIMA) personnel
       did not provide an accurate listing of the current NFIP Standards Committee members in May
       2013 upon our request.




                                                   3

                               Federal Emergency Management Agency
                                  Financial Management Comments

                                         September 30, 2013




       Recommendation:
       We recommend that FEMA develop and implement policies and procedures which require the
       Standards Committee to meet on a periodic basis and ensure vacancies are filled in a timely
       manner.

FMC 13-06 – Deficiencies Related to the Public Disclosure Filing Process (NFR No. FEMA 13-06)
       We selected a sample of 24 individuals required to file public disclosures (Office of Government
       Ethics (OGE) Form 278) in 2013 and noted the following exceptions:
       �	 For 10 individuals selected, the FEMA Agency Ethics Official did not complete his/her initial
           review within 60 days of the filer’s submission.
       �	 For 2 individuals selected, the new entrant public disclosure form was not completed within
           30 days of assuming the public filer position.

       Recommendations:
       We recommend that FEMA:
       �	 Utilize the recent additional staffing resource in the FEMA Ethics Office to allow for the
          dedication of sufficient time to complete the initial review of OGE Form 278 within 60 days
          of the filers’ submissions.
       �	 Develop and implement procedures to ensure all new entrants complete OGE Form 278
          within 30 days of their entry on duty date or have a valid extension included in their files.

FMC 13-07 – Internal Control Deficiencies Identified over Claims Paid at Selected Insurance
Companies that Participate in FEMA’s NFIP as of March 31, 2013 (NFR No. FEMA 13-07)
       We tested a total of 350 claim payments during the period October 1, 2012 to March 31, 2013,
       which included the following: (a) a sample of 270 claims paid transactions across nine insurance
       companies for internal control testwork, and (b) a sample of 80 claims paid transactions across 17
       insurance companies for substantive testwork. We noted the following exceptions:
       �	 For one control sample item, the original Proof of Loss (POL) obtained for the supplemental
           payment was not available.
       �	 For one control sample item, the claim was paid without a signed POL from the insured.
       �	 For one control sample item, the claim was paid without a 60-day POL waiver from FEMA.
       �	 For three control sample items, the amount paid to the insured was calculated incorrectly.

       Recommendations:
       We recommend that FEMA:
       �	 Follow-up with each insurance company identified above to determine that appropriate
          corrective action has been implemented to ensure compliance with the Standard Flood
          Insurance Policy’s POL requirement.
       �	 Enhance monitoring and oversight of the insurance companies participating in the NFIP to
          ensure claims files are being processed and reviewed in accordance with NFIP guidelines
          before approval and issuance of claims.




                                                   4

                               Federal Emergency Management Agency

                                  Financial Management Comments

                                         September 30, 2013




       �	 Identify and implement systemic solutions to ensure the accuracy of claim payments based on
          the information documented in the claim file.

FMC 13-08 – Internal Control Deficiencies Identified over Premiums Written by FEMA’s NFIP
(NFR Nos. FEMA 13-08 and 13-08a)

       We tested a total of 287 written premium transactions during the period October 1, 2012 to March
       31, 2013, which included the following: (a) a sample of 270 written premium transactions across
       nine insurance companies for internal control testwork, and (b) a sample of 17 written premium
       transactions across 10 insurance companies for substantive testwork. We noted the following
       exceptions:
       �	 For one control sample item, we noted a valid street address was not provided for the insured
           property address, and thus, we were unable to verify the flood zone per the FEMA Flood
           Maps.
       �	 For one control sample item, we noted the policy effective date was calculated incorrectly
           based on the policy quote date, and did not adhere to the standard 30-day wait period from the
           endorsement request date.

       In addition, we tested a total of 197 written premium transactions during the period April 1, 2013
       to August 31, 2013, which included the following: (a) a sample of 180 written premium
       transactions across nine insurance companies for internal control testwork, and (b) a sample of 17
       written premium transactions across eight insurance companies for substantive testwork. We
       noted the following exceptions:
       �	 For one control sample item as of June 30, 2013, we noted a rural route was provided for the
           insured property address, and thus, we were unable to verify the flood zone per the FEMA
           Flood Maps.
       �	 For one control sample item as of August 31, 2013, we noted a proper physical location was
           not provided for the insured property address, and thus, we were unable to verify the flood
           zone per the FEMA Flood Maps
       �	 For one control sample item as of August 31, 2013, we noted the policy was written in the
           incorrect flood zone.

       Recommendations:
       We recommend that FEMA:
       �	 Follow-up with each insurance company identified above to determine that appropriate
          corrective action has been implemented to address the exceptions identified.
       �	 Provide increased oversight to insurance companies participating in the NFIP to ensure they
          process and review underwriting files in accordance with NFIP guidelines.
       �	 Revise the NFIP Flood Insurance Manual to require that all flood zones included in
          insurance policy applications are subject to verification by an underwriter through the use of
          risk-based sampling techniques.




                                                   5

                               Federal Emergency Management Agency

                                  Financial Management Comments

                                         September 30, 2013




FMC 13-09 – Non-Compliance with 5 Code of Federal Regulations (CFR) Part 2634 and 5 CFR
Part 2638 Related to Ethics Requirements (NFR No. FEMA 13-11)

       For a sample of 22 new employees from October 1, 2012 to June 30, 2013, FEMA was unable to
       provide documentation that 11 of them had completed initial ethics training in FY 2013 per 5
       CFR § 2638.703.

       In addition, FEMA did not maintain one complete and accurate list of confidential filers required
       to file a Confidential Financial Disclosure Report (OGE Form 450) and attend annual ethics
       training to ensure compliance with 5 CFR § 2634 and 2638.
       �	 Of the 2,206 identified filers, 53 did not respond to the Office of Chief Counsel (OCC) as of
            July 25, 2013 with an OGE Form 450 or completed job aide to demonstrate that they were
            not required filers.
       �	 Of a sample of 59 potential filers, OCC was not able to provide the OGE Form 450 filing or
            completed job aide for 33 individuals.

       Recommendations:
       We recommend that FEMA:
       �	 Consistently use the FEMA Employee Knowledge Center to track initial ethics training,
          including the implementation of procedures to ensure that ethics training for all new
          employees outside of the National Capital Region is administered and tracked.
       �	 Develop and implement policies and procedures to effectively identify all employees required
          to file an OGE Form 450.
       �	 Clarify the roles and responsibilities of OCC, the Office of the Chief Component Human
          Capital Officer, and other supporting parties as they relate to identifying and executing the
          OGE Form 450 filing requirement.

FMC 13-10 – Deficiencies in Policies and Procedures over Updating Loss Reserves at Insurance
Companies that Participate in FEMA’s NFIP (NFR No. FEMA 13-15)

       Based on our process walkthroughs with FIMA personnel, we determined that the insurance
       companies participating in the NFIP did not consistently update loss reserves following the
       receipt of additional claims adjuster information. For example, WYO companies and the Direct
       Servicing Agent (DSA) were not required to:
       �	 Update loss reserves within a certain timeframe, or note in claims documentation why loss
           reserves were not updated, after new information is provided by the adjuster.
       �	 Review and update loss reserves, or note in claims documentation why loss reserves were not
           updated, as of specific period ends to ensure accurate reporting of loss reserve information to
           FEMA.




                                                    6

                              Federal Emergency Management Agency
                                 Financial Management Comments

                                        September 30, 2013




       Recommendations:
       We recommend that FEMA:
       �	 Require WYO companies and the DSA to formally document their loss reserve policies and
          procedures at the company level.
       �	 Perform a regular (e.g., monthly) review of the total outstanding NFIP loss reserve balance
          for all WYO companies and the DSA.

FMC 13-11 – Deficiencies Identified in the Integrated Financial Management System Chart of
Accounts and Transaction Codes (NFR No. FEMA 13-25)

       Based on our review of FEMA’s FY 2013 Integrated Financial Management Information System
       (IFMIS) chart of accounts as of June 30, 2013, we noted the following exceptions, four of which
       remained as of September 30, 2013:
       �	 Ten accounts listed in the IFMIS chart of accounts were not listed within the 2013 U.S.
          Standard General Ledger (USSGL) Chart of Accounts.
       �	 Two accounts were incorrectly labeled in the IFMIS chart of accounts, when compared to the
          2013 USSGL Chart of Accounts.
       �	 Three accounts were mapped incorrectly or listed under the wrong primary account in the
          IFMIS chart of accounts, when compared to the 2013 USSGL Chart of Accounts.
       �	 Three accounts that were not included in the 2013 USSGL Chart of Accounts were labeled as
          “account no longer used” but still existed within the IFMIS chart of accounts and had not
          been deactivated at the time of our testing.

       Based on our substantive testwork performed over all 34 new transaction codes (T-codes) and
       164 total T-code transactions as of June 30, 2013, we identified that 4 T-code transactions were
       not in compliance with the USSGL. Additionally, we identified 9 T-code transactions that did not
       contain the related budgetary/proprietary entry required by the USSGL.

       Based on our control testwork performed over a sample of 8 T-code approval forms and 13 total
       T-code transactions as of June 30, 2013, we identified that 2 T-code approval forms and the
       related 3 total T-code transactions were not approved prior to T-code creation in IFMIS.

       Based on our substantive testwork performed over a sample of 24 new T-codes and 52 total T-
       code transactions as of September 30, 2013, we identified 8 T-code transactions that did not
       contain the related budgetary/proprietary entry required by the USSGL:

       Recommendations:
       We recommend that FEMA:
       �	 Develop and implement a monitoring process to periodically review the IFMIS chart of
          accounts to ensure it is in compliance with the USSGL.
       �	 If prior year accounts are necessary to post beginning balances, develop and implement
          procedures to ensure accounts are deactivated timely once beginning balances are recorded.




                                                  7

                               Federal Emergency Management Agency
                                  Financial Management Comments

                                         September 30, 2013




       �	 Develop a comprehensive T-code crosswalk to determine whether IFMIS T-codes are in
          compliance with the USSGL and why some T-codes deviate from the USSGL.
       �	 Review Standard Operating Procedure (SOP) 2600-004 to ensure the SOP properly addresses
          compliance with the USSGL, update as necessary, and enforce the required review
          procedures contained in it.

FMC 13-12 – Ineffective Controls over Intergovernmental Advances (NFR No. FEMA 13-26)

       Based on control testwork performed over the Federal Transit Administration (FTA) advance, we
       noted the regional contracting officer’s representative (COR) did not review the FTA
       expenditures as of September 30, 2013 within a reasonable timeframe following the end of the
       quarter. Specifically, as of December 3, 2013, a regional COR review of the FY 2013 4th quarter
       expenditures for the advance had not been completed.

       Recommendation:
       We recommend that FEMA develop and implement a process to ensure timely COR review and
       approval of FTA expenditures related to advance liquidation.

FMC 13-13 – Deficiencies in the Development of Mission Assignment Policies and Procedures and
High Risk Undelivered Orders Write-off Process (NFR No. FEMA 13-27)

       Under SOP Number 2600-007, Financial Processing of Mission Assignments, dated April 2,
       2013, FEMA required mission assignment-related UDO balances to be validated as of June 30th
       of each year. We noted that the SOP was updated in FY 2013 to include a footnote defining case-
       by-case basis. The footnote reads: “Case-by-case is based on age/activity and the agency as those
       that are a revolving fund cannot be de-obligated without authorization as it could result in them
       being deficient.” This updated language did not remediate the prior year NFR condition related to
       FEMA’s lack of an escalation process for unresponsive other Federal agencies (OFA) to ensure
       the mission assignment UDO balances were validated prior to fiscal year-end.

       FEMA’s June 30 and September 30 high risk UDO journal voucher (JV) process increased the
       accuracy of FEMA’s financial statements at September 30; however, it did not address the
       underlying issue that UDOs identified as invalid were not escalated in a timely manner for
       closeout. In addition, FEMA’s high risk UDO JV did not include all the UDOs identified for
       closeout because certain UDOs that had been identified for closeout did not meet FEMA’s
       business rules to be included in the June 30 or September 30 UDO JV population as documented
       in Exhibit 5-3 of FEMA’s 2600-022, Procedures for High Risk UDO Balance Write-off SOP. For
       example, based on our control testwork performed over a sample of 25 UDO balances as of June
       30, 2013, we noted that for 1 of the 25 UDOs selected, the UDO had been identified for
       deobligation and closeout during the UDO quarterly validation as of June 30, 2013. FEMA noted
       that the UDO did not meet the business rules to be included in the June 30, 2013 high risk UDO
       JV, but that it was being monitored on the Grants Program Directorate Closeout Log. However,
       as of September 30, 2013, the UDO had not been de-obligated.



                                                   8

                               Federal Emergency Management Agency
                                  Financial Management Comments

                                         September 30, 2013




       Recommendations:
       We recommend that FEMA:
       �	 Develop and implement an escalation process and closeout timeline for instances where the
          OFA does not provide validation of the mission assignment in a timely manner.
       �	 Develop and implement procedures to ensure the timely deobligation and closeout of UDOs
          identified as no longer required.

FMC 13-14 – Certain Payroll Processing Control Deficiencies (NFR No. FEMA 13-28)

       Based on process walkthroughs and interim internal control testwork, we determined FEMA did
       not have policies and procedures for resolving leave error discrepancies. In addition, in a sample
       of 45 individuals with leave error discrepancies, we noted 19 leave errors that were not corrected
       within one pay period. Of those 19 exceptions, 4 were not corrected by year-end.

       Based on process walkthroughs, we determined that FEMA did not perform a reconciliation
       between data submitted through WebTA and what is paid by the third-party service provider.

       Recommendations:
       We recommend that FEMA:
       �	 Develop and implement policies and procedures for resolving leave error discrepancies.
       �	 Formalize and monitor the control over the review and resolution of leave error
          discrepancies.
       �	 Develop and implement a control to reconcile payroll information submitted to the third-party
          service provider through WebTA with the related disbursement made by the provider.

FMC 13-15 – Deficiencies Identified over Claims’ Loss Reserves at Selected Insurance Companies
that Participate in FEMA’s NFIP as of August 31, 2013 (NFR No. FEMA 13-29)

       We tested 65 loss reserve balances as of February 28, 2013 and 65 loss reserve balances as of
       August 31, 2013, for a total of 130 loss reserve balances across 25 WYO insurance companies
       and the DSA. During this testwork, we noted the following exceptions related to management of
       loss reserves at the WYO insurance companies and the DSA, all of which caused reserves to be
       overstated:
       �	 For two sample items, the loss reserve related to the claim transaction was not updated
           properly to reflect advance payments or additional adjuster reports.
       �	 For three sample items, the loss reserve related to the claim transaction was not updated when
           the claim was closed.
       �	 For one sample item, a claim was reopened to correct an overpayment and reserves were
           established in error.
       �	 For one sample item, two dates of loss with separate loss reserves related to the same claim
           transaction were open at the same time.
       �	 For one sample item, the loss reserve was calculated incorrectly.




                                                   9

                               Federal Emergency Management Agency

                                  Financial Management Comments

                                         September 30, 2013




       �	 For one sample, the loss reserve remained open on a claim with a date of loss older than 20
          years; this claim should have been closed based on lack of claim activity, and the loss
          reserves should have been reduced to zero.

       In addition, we noted the following exceptions related to incorrect transactions submitted from
       the WYO insurance companies and the DSA to the third-party service provider:

       �	 For one sample item, a General Correction transaction was submitted with zeros instead of
          asterisks in the Contents reserve field. This field must be reported with asterisks to remove
          the Contents reserve; thus, the Contents reserves remained unchanged, causing reserves to be
          overstated.
       �	 For four sample items, a Close Loss transaction was not submitted upon issuance of the claim
          payment, causing reserves to be overstated.
       �	 For two sample items, a Change Reserves transaction was submitted to update the reserves
          for an advance payment. As advance payments automatically decrease reserves, this
          transaction double-counted the advance, causing reserves to be understated.
       �	 For one sample item, a transaction was submitted with an incorrect decimal place, causing
          reserves to be overstated.

       Recommendations:
       We recommend that FEMA:
       �	 Follow-up with each insurance company identified above to determine that appropriate
          corrective action has been implemented to address the exceptions identified.
       �	 Provide increased oversight to insurance companies participating in the NFIP to ensure the
          specific and consistent establishment and reporting of loss reserves and subsequent
          adjustments to the loss reserves.
       �	 Require WYO companies and the DSA to develop and implement procedures to review
          transactions prior to submission to the third-party service provider and to ensure such
          transactions are accurate and submitted timely.

FMC 13-16 – Issues Identified in Journal Voucher Testwork through September 30, 2013 (NFR No.
FEMA 13-30)

       Based on our JV testwork performed over a sample of 52 JVs as of March 31, 2013, we noted the
       following exceptions:
       �	 Three JVs were corrections of previous JVs that would not have been necessary if the original
           entry was properly reviewed and approved to determine if the budget fiscal year was proper
           when the initial entry was recorded.
       �	 One JV was created to address the budgetary impact of a transfer that was not recorded by
           BPAD; the JV would not have been necessary if the transfer had originally been posted
           correctly by BPAD.




                                                  10

                               Federal Emergency Management Agency
                                  Financial Management Comments

                                         September 30, 2013




       Based on our JV testwork performed over a sample of 21 JVs as of June 30, 2013, we noted the
       following exceptions:
       �	 One JV was the auto-reversal of the correcting entry made in the transfer entry noted above;
           the JV would not have been necessary if the transfer had originally been posted correctly by
           BPAD.
       �	 Two JVs related to the mandated sequestration and rescissions that took place during FY
           2013. These two entries related to a sequence of JVs in which USSGL account 1010 was
           erroneously credited.

       Based on our JV testwork performed over a sample of 26 JVs as of September 30, 2013, we noted
       the following exceptions:
       �	 One JV was a correction of a previous JV for which only a portion of the JV was
           automatically reversed, which resulted in the need for a separate JV (the sample item
           selected) to be manually reversed in a later period. This JV would not have been necessary if
           the original entry had been properly recorded and reversed.
       �	 One JV recorded the clearing of funds for advances related to canceling funds using USSGL
           transaction D114, which credits USSGL account 4881, when USSGL account 4871 should
           have been credited.

       Recommendations:
       We recommend that FEMA:
       �	 Improve review procedures to ensure JVs are timely and thoroughly researched, reviewed,
          and approved prior to entering them into IFMIS. Proper review should include determining
          that the correct USSGL accounts are used in the JVs.
       �	 Implement a process to adequately and timely review transactions recorded by BPAD
          personnel to ensure that budgetary transactions are properly recorded in the general ledger.

FMC 13-17 – Updates and Oversight Needed to Grant Accrual Standard Operating Procedures and
Their Implementation (NFR No. FEMA 13-31)

      The description of how to reconcile the grant accrual model inputs to the general ledger (GL) in
      FEMA’s Accounting Accrual – Grants – [Payment and Reporting System] PARS SOP, issued
      March 15, 2013, was inaccurate and had not been properly updated to reflect the current process
      for reconciling inputs to the GL. In addition, FEMA’s Accounting Accrual – Grants – SmartLink
      SOP, issued March 14, 2013, did not include documentation disclosing the inclusion of one non-
      grant Personal Identification Number in the grant accrual model data. These conditions resulted in
      a control failure related to the March 31, 2013 SmartLink and PARS Accrual Checklist procedure
      1, “Perform quarterly review of data extract procedures. Update and document accordingly
      (update any changes or modifications).”

      Based on control testwork performed over the JVs related to FEMA’s March 31, 2013 PARS
      grant accrual model, we noted that for 3 of the 19 items, the JV was not reviewed by a FFC
      supervisory accountant.



                                                  11

                               Federal Emergency Management Agency

                                  Financial Management Comments

                                         September 30, 2013





       Because of the Government-wide shutdown, FEMA did not prepare the September 30, 2013
       PARS accrual model until October 24, 2013. The delay in preparing the accrual resulted in
       additional grantee expenses being included in the model, which resulted in an artificially high
       liability balance of $502.4 million. Although FEMA subsequently re-prepared the model
       appropriately using only expenses submitted prior to year-end, which resulted in a liability
       balance of $290.1 million, the model prepared on October 24, 2013 demonstrated a control failure
       as PARS Accrual Checklist procedure #3, “Review underlying data to verify accuracy and
       completeness of data prior to uploading into Grant Accrual Dashboard,” was not properly
       completed.

       We recommend that FEMA:
       �	 Update its grant accrual SOPs to reflect current accrual processes.
       �	 Conduct training to ensure that the individuals responsible for preparing and reviewing the
          grant accrual clearly understand their roles and responsibilities for the preparation and review
          of the grant accrual.
       �	 Implement appropriate reviews to ensure the accuracy of the grant accrual.

FMC 13-18 – Improvements Needed in Management’s Review of the Acceptable Variance Ranges
(NFR No. FEMA 13-32)

       During our review of the March 31 and September 30, 2013 grant accruals, we noted that
       variances between estimated and actual advances and liabilities that exceeded the Acceptable
       Variance Range thresholds established by FEMA policies were not adequately addressed related
       to the SmartLink accrual as of September 30, 2012, and the PARS accruals as of September 30,
       2012, December 31, 2012, March 31, 2013, and June 30, 2013.

       Recommendation:
       We recommend that FEMA thoroughly review, resolve, and document the resolution of large
       variances between estimated and actual advances and liabilities, including assessing the
       reasonableness of the estimation methodology.

FMC 13-19 – Untimely Review of SF-224, Statement of Transactions (NFR No. FEMA 13-33)

       Based on control testwork performed, of the nine Standard Form (SF)-224s and Supplemental SF­
       224s submitted to the Government-wide Accounting system for March 2013, four SF-224
       submissions were marked as reviewed on April 3, 2013, one day after submission of the SF-224s
       on April 2, 2013.

       Recommendation:
       We recommend that FEMA develop and implement policies and procedures to require
       supervisory review and approval of the SF-224s prior to submission.




                                                   12

                                                                                                     Appendix A
                               Federal Emergency Management Agency
                     Crosswalk – Financial Management Comments to Active NFRs
                                         September 30, 2013


                                                                                           Disposition1
                                                                                           IAR            FMC
            NFR
Component            Description                                                      MW   SD       NC    No.
            No.
FEMA        13-01    Inability to Link Systems to Significant Grant Programs                              13-01
                     Lack of Management Review Control for the Annual Subsidy
FEMA        13-02                                                                                         13-02
                     Re-Estimate Calculation
                     Insufficient Communication to Employees of the Department
FEMA        13-03    of Homeland Security Office of Inspector General Hotline and                         13-03
                     Code of Conduct
FEMA        13-04    Deficiencies in the Monthly Budget Execution Reviews                                 13-04
                     Lack of Oversight by the National Flood Insurance Program
FEMA        13-05                                                                                         13-05
                     (NFIP) Standards Committee
FEMA        13-06    Deficiencies Related to the Public Disclosure Filing Process                         13-06
                     Internal Control Deficiencies Identified over Claims Paid at
FEMA        13-07    Selected Insurance Companies that Participate in FEMA’s                              13-07
                     NFIP as of March 31, 2013
                     Internal Control Deficiencies Identified over Premiums
FEMA        13-08                                                                                         13-08
                     Written by FEMA’s NFIP
                     Internal Control Deficiencies Identified over Premiums
FEMA        13-08a                                                                                        13-08
                     Written by FEMA’s NFIP as of August 31, 2013
                     Ineffective Controls over Tracking Grants Eligible for Close-
FEMA        13-09                                                                          G
                     Out
FEMA        13-10    Failure to Recertify Policies and Procedures in Various Areas         E
                     Non-Compliance with 5 Code of Federal Regulations (CFR)
FEMA        13-11    Part 2634 and 5 CFR Part 2638 Related to Ethics                                      13-09
                     Requirements
                     Ineffective Controls Related to Monitoring Undelivered
FEMA        13-12                                                                     D
                     Orders
                     Ineffective Controls over Procurement Obligations and
FEMA        13-13    Deobligations and Non-Compliance with the Federal                D
                     Acquisition Regulation (FAR)
FEMA        13-14    Untimely Deobligation of Undelivered Orders                      D
                     Deficiencies in Policies and Procedures over Updating Loss
FEMA        13-15    Reserves at Insurance Companies that Participate in FEMA’s                           13-10
                     NFIP
                     Deficiency in the Travel Obligation Process at the Mississippi
FEMA        13-16                                                                     D
                     Recovery Office
                     Ineffective Controls over the Recording of Funding
FEMA        13-17                                                                     D
                     Transactions
                     Deficiencies in the Monthly SF-132 to SF-133 Reconciliation
FEMA        13-18    Review Process                                                   D

                     Ineffective Controls over Intergovernmental Activity
FEMA        13-19                                                                     D
                     Deobligations and Payments
                     Monitoring of Audit Findings in Accordance with OMB
FEMA        13-20                                                                          G         K
                     Circular No. A-133
FEMA        13-21    Ineffective Controls over Grants                                      G




                                                         13

                                                                                                              Appendix A
                                   Federal Emergency Management Agency
                         Crosswalk – Financial Management Comments to Active NFRs
                                             September 30, 2013


                                                                                                   Disposition1
                                                                                                  IAR                 FMC
              NFR
Component                Description                                                    MW         SD        NC       No.
              No.
FEMA          13-22      Improper Processing of Undelivered Orders                        D
                         Ineffective Controls over Grant Obligations, Deobligations,
FEMA          13-23      Payments, and Monitoring Efforts, and Non-Compliance with                  G
                         Cash Management Improvement Act
                         Non-Compliance with the Federal Financial Management
FEMA          13-24                                                                                           J
                         Improvement Act of 1996
                         Deficiencies Identified in the Integrated Financial
FEMA          13-25      Management System Chart of Accounts and Transaction                                         13-11
                         Codes
FEMA          13-26      Ineffective Controls over Intergovernmental Advances                                        13-12
                         Deficiencies in Development of Mission Assignment Policies
FEMA          13-27      and Procedures and High Risk Undelivered Orders Write-off                                   13-13
                         Process
FEMA          13-28      Certain Payroll Processing Control Deficiencies                                             13-14
                         Deficiencies Identified over Claims’ Loss Reserves at
FEMA          13-29      Selected Insurance Companies that Participate in FEMA’s                                     13-15
                         NFIP as of August 30, 2013
                         Issues Identified in Journal Voucher Testwork through
FEMA          13-30                                                                                                  13-16
                         September 30, 2013
                         Updates and Oversight Needed to Grant Accrual Standard
FEMA          13-31                                                                                                  13-17
                         Operating Procedures and Their Implementation
                         Improvements Needed in Management’s Review of the
FEMA          13-32                                                                                                  13-18
                         Acceptable Variance Ranges
FEMA          13-33      Untimely Review of SF-224, Statement of Transactions                                        13-19


1
 Disposition Legend:
IAR	       Independent Auditors’ Report dated December 11, 2013
FMC	       Financial Management Comment
MW	        Contributed to a Material Weakness at the Department level when combined with the results of all other components
SD	        Contributed to a Significant Deficiency at the Department level when combined with the results of all other
          components
NC	        Contributed to Non-Compliance with laws, regulations, contracts, and grant agreements at the Department level when
          combined with the results of all other components
NFR	       Notice of Finding and Recommendation

Cross-reference to the applicable sections of the IAR:
A	        Financial Reporting
B	        Information Technology Controls and Financial Systems Functionality
C         Property, Plant, and Equipment
D	        Budgetary Accounting
E	        Entity-Level Controls
F	        Liabilities
G	        Grants Management
H	        Custodial Revenue and Drawback




                                                             14

                                                                             Appendix A
                            Federal Emergency Management Agency
                  Crosswalk – Financial Management Comments to Active NFRs
                                      September 30, 2013

I   Federal Managers’ Financial Integrity Act of 1982 (FMFIA)
J   Federal Financial Management Improvement Act of 1996 (FFMIA)
K   Single Audit Act Amendments of 1996
L   Antideficiency Act, as amended (ADA)




                                                   15

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix A
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Chief Privacy Officer

   Federal Emergency Management Agency’s

   Administrator
   Chief Financial Officer
   Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate


   �




www.oig.dhs.gov                                                            OIG-14-77
ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
